APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1666

MARK LEYSE, Individually and on Behalf
of All Others Similarly Situated,
Appellant
v.
BANK OF AMERICA NATIONAL ASSOCIATION
Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 2-11-cv-07128)
District Judge: Honorable Susan D. Wigenton
Submitted under Third Circuit LAR 34.1(a)
On September 24, 2020
Before: AMBRO, PORTER
and ROTH, Circuit Judges

1a

(Opinion filed: May 19, 2021)
OPINION*
ROTH, Circuit Judge.
Mark Leyse brought an action under the Telephone
Consumer Protection Act (TCPA) after receiving a
prerecorded telemarketing call on the landline he
shares with his roommate. Leyse’s complaint contains
a single count for violation of the TCPA. Defendant
moved for summary judgment, arguing, inter alia, that
Leyse lacked standing to sue under Article III of the
United States Constitution. The District Court granted
the motion, and Leyse appealed. We will affirm.
I.
On March 11, 2005, DialAmerica Marketing, Inc.,
on behalf of Bank of America, called the residential
telephone line that Leyse shared with his roommate,
Genevieve Dutriaux. Leyse answered the call.
DialAmerica did not have a sales representative
available to handle the call when it was made, and
therefore it played the following prerecorded message:
“This call is on behalf of Bank of America at
1-800-201-6872 for telemarketing purposes. We’re
sorry we missed you and we will try calling back at
*

This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

2a

another time.”1
At the time of the call, Leyse worked as an
investigator for Attorney Todd C. Bank, helping him
prepare TCPA lawsuits.2 In this role, Leyse made
investigative calls to companies to determine the
number and frequency of the calls they made. During
these calls, Leyse used a false name, withheld the true
purpose of the calls, and secretly recorded them. He
then provided the recordings to Bank to use in TCPA
suits such as this one.
After the March 11 call, Leyse placed and recorded
over 20 calls to DialAmerica and provided the
recordings to Bank. During these calls, Leyse used a
false name and employer and asked DialAmerica about
the services it provided, the numbers it called, the
dialing system it used, the number of recorded
messages it left per day, and whether the
representatives knew that the call violated the TCPA.
When twice asked by DialAmerica representatives if he
wanted to be added to their Do-Not-Call list, Leyse
declined.
Leyse sued Bank of America on December 5, 2011.3
The First Amended Class Action Complaint contains a

1

Appx. 3.

2

Bank represents Leyse in this appeal.

3

Because we write primarily for the parties, we only discuss the
proceedings to the extent necessary for resolving this appeal.

3a

single count of violation of the TCPA. Leyse does not
allege that he suffered any annoyance or nuisance from
the call and seeks only statutory damages. Following
prolonged discovery, Bank of America moved for
summary judgment, arguing that (1) Leyse lacked
Article III standing to sue under the TCPA, (2) the call
was exempt from the TCPA under FCC rules because
the parties had an established business relationship in
that Leyse was a customer of Bank of America, and (3)
the content of the recorded message did not violate the
TCPA. The District Court agreed with Bank of America
and granted summary judgment in its favor on all
three grounds.
II.
The District Court found that Leyse failed to
establish Article III standing to sue under the TCPA.4
It reasoned that Leyse did not claim that he suffered
nuisance, annoyance, inconvenience, wasted time, or
any other such injury. He only asserts a bare
procedural violation that resulted in no harm.
Accordingly, the District Court held that Leyse failed
to establish an injury-in-fact, as required to
demonstrate standing to sue under Article III of the
United States Constitution. We agree with the District
Court and will affirm its holding.
“Under

4

Article

III

of

the

United

States

This Court “review[s] a party’s standing to sue de novo.”

Freedom From Religion Found., Inc. v. Cnty. of Lehigh, 933 F.3d

275, 279 (3d Cir. 2019) (citation omitted).

4a

Constitution, the power of the judiciary extends only to
Cases and Controversies.”5 “One element of the
case-or-controversy requirement is that [plaintiffs],
based on their complaint, must establish that they
have standing to sue.”6 The standing doctrine “limits
the category of litigants empowered to maintain a
lawsuit in federal court” and has “developed in our case
law to ensure that federal courts do not exceed their
authority as it has been traditionally understood.”7 To
maintain a suit, a “plaintiff must have (1) suffered an
injury in fact, (2) that is fairly traceable to the
challenged conduct of the defendant, and (3) that is
likely to be redressed by a favorable judicial decision.”8
This appeal involves only the first requirement,
injury-in-fact.
To show injury in fact, a plaintiff must allege “‘an
invasion of a legally protected interest’ that is ‘concrete
and particularized’ and ‘actual or imminent, not
conjectural or hypothetical.’”9 “‘Th[e] injury . . . must be
concrete in both a qualitative and temporal sense,’ and
5

Long v. Se. Pa. Transp. Auth., 903 F.3d 312, 320 (3d Cir. 2018)
(internal quotation marks omitted).

6

Raines v. Byrd, 521 U.S. 811, 818 (1997) (citation omitted).

7

Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (citation

omitted).
8

Id.

9

Id. at 1548 (quoting Lujan v. Defenders of Wildlife, 504 U.S.
555, 560 (3d Cir. 1992)).

5a

an ‘abstract’ injury will not suffice.”10 In Spokeo, Inc. v.
Robbins, the Supreme Court recognized that Congress
may elevate certain intangible harms “to the status of
legally cognizable injuries,” even if those injuries “were
previously inadequate in law,”11 but that this “does not
mean that a plaintiff automatically satisfies the
injury-in-fact requirement whenever a statute grants
a person a statutory right.”12
We have recognized Spokeo’s teaching that “there
are some circumstances where the mere technical
violation of a procedural requirement of a statute
cannot, in and of itself, constitute an injury in fact.”13
However, we have also held that “[w]hen one sues
under a statute alleging “‘the very injury [the statute]
is intended to prevent,’ and the injury “has a close
relationship to a harm . . . traditionally . . . providing
a basis for a lawsuit in English or American courts,” a
concrete injury has been pleaded.14
On appeal, Leyse argues that, with respect to the
10

Kamal v. J. Crew Grp., Inc., 918 F.3d 102, 110 (3d Cir. 2019)
(quoting Whitmore v. Arkansas, 495 U.S. 149, 155 (1990)).

11

Spokeo, Inc., 136 S. Ct. at 1547 (quoting Lujan, 504 U.S. at

578).
12

Id.

13

Susinno v. Work Out World Inc., 862 F.3d 346, 350 (3d Cir.
2017) (quoting Spokeo, 136 S. Ct. at 1549).

14

Id. at 350–51.

6a

TCPA, Article III standing does not require any
allegations of harm beyond the statutory violations
themselves.15 We decline to adopt such an absolute rule
of standing with respect to the TCPA.
In a prior appeal in this matter, we held that the
TCPA is intended to prevent harm stemming from
nuisance, invasions of privacy, and other such
injuries.16 Therefore, Leyse must allege one of those
injuries that the TCPA is intended to prevent.17 The
District Court found that Leyse did not assert such an
injury. Leyse does not dispute this finding.
Accordingly, Leyse cannot show a concrete harm that
is necessary to demonstrate an injury-in-fact.
Such a demonstration is required to establish
Article III standing to sue under the TCPA. Because
we hold that Leyse lacks standing, we need not address
Leyse’s additional challenges to the District Court’s
grant of summary judgment against him.
III.
15

Leyse also argues that the established business relationship
exception does not apply, and the abandoned call regulation did
not render the Call exempt from the TCPA. Because we affirm the
District Court’s ruling on the standing issue, we do not address
the remaining challenges.

16

Leyse v. Bank of Am. Nat’l. Ass’n, 804 F.3d 316, 326 (3d Cir.

2015).
17

Susinno, 862 F.3d at 350–51.

7a

For the above reasons, we will affirm the District
Court’s grant of summary judgment in Bank of
America’s favor.18

18

Judge Porter concurs in the judgment and would affirm
because Dial America’s call to Leyse did not violate the Telephone
Consumer Protection Act.

8a

APPENDIX B
NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
MARK LEYSE, on behalf of himself and all
others similarly situated,
v.

Plaintiff,

BANK OF AMERICA, NATIONAL
ASSOCIATION,
Defendant.
Civil Action No. 11-7128 (SDW) (SCM)
OPINION
March 13, 2020
WIGENTON, District Judge.
Before this Court are Defendant Bank of America,
National Association’s (“Defendant” or “BoA”) Motion
for Summary Judgment pursuant to Federal Rule of
Civil Procedure (“Rule”) 56 and Motion to Strike
Plaintiff Mark Leyse’s (“Plaintiff” or “Leyse”) Expert, as
well as Plaintiff’s Motion for Class Certification
pursuant to Rule 23 and Motion to File a Second
9a

Amended Complaint. Jurisdiction is proper pursuant to
28 U.S.C § 1331 and § 1332(d)(2)(A). Venue is proper
pursuant to 28 U.S.C. § 1391. For the reasons discussed
below, Defendant’s Motion for Summary Judgment is
GRANTED. Defendant’s Motion to Strike, Plaintiff’s
Motion to Amend, and Plaintiff’s Motion for Class
Certification are DISMISSED AS MOOT.
I.

FACTUAL AND PROCEDURAL HISTORY

This case, and two related cases in other
jurisdictions, began with a telemarketing phone call on
March 11, 2005 (the “Call” or the “March 11th Call”).
(D.E. 222-2 ¶¶ 6, 33–34, 40–41.)1 DialAmerica
Marketing, Inc. (“DialAmerica”), on behalf of Defendant,
called the residential telephone line that Plaintiff
shared with his roommate, Genevieve Dutriaux. (Id. ¶
6.) When the Call was answered,2 DialAmerica did not

1

Record citations in this opinion are generally to the parties’
Local Rule 56.1 Statements, namely, Defendant’s Statement of
Material Facts Not in Dispute (D.E. 222-2), Plaintiff’s Response to
Defendant’s Statement (D.E. 227-1), Plaintiff’s Supplemental
Statement (D.E. 227-2), and Defendant’s Response to Plaintiff’s
Supplemental Statement (D.E. 230-1), as well as the record
citations contained therein.

2

It is unclear if Plaintiff answered the Call. He claimed to have
answered the Call himself at a June 2017 deposition, but told
DialAmerica representatives in March 2005 that the Call went to
his answering machine. (D.E. 222-1 at 12; D.E. 222-2 ¶ 28.)
However, this fact issue is immaterial for the purposes of this
motion. See Susinno v. Work Out World Inc., 862 F.3d 346, 351 (3d
Cir. 2017) (holding that a single prerecorded voicemail can incur
TCPA liability).

10a

have a sales representative available to handle the call
and, therefore, played the following prerecorded
message: “This call is on behalf of Bank of America at
1-800-201-6872 for telemarketing purposes. We’re sorry
we missed you and we will try calling back at another
time.” (Id. ¶ 7.)
Plaintiff was a BoA customer at the time of the Call
and had been for nearly a decade. (Id. ¶¶ 46–47.)
Plaintiff also worked as an investigator for his counsel
of record, Todd C. Bank, at the time of the Call, helping
him prepare TCPA lawsuits. (Id. ¶ 9.) In that role,
Plaintiff called companies to determine, inter alia, the
number and frequency of the calls they made. (Id. ¶ 11.)
During these investigative calls, Plaintiff used a false
name, withheld the true purpose of the calls, and
secretly recorded the calls. (Id. ¶¶ 12–13.) He then
provided the recordings to Mr. Bank to use in TCPA
litigations such as this one. (Id.) For performing “well
over a hundred” investigative calls, Plaintiff was paid
$60 an hour and earned between $40,000 and $75,000.
(Id. ¶¶ 10, 14.)
Following the Call, Plaintiff placed more than 20
calls to DialAmerica; Plaintiff recorded the calls and
provided the recordings to Mr. Bank. (Id. ¶¶ 21–26;
D.E. 227-1 ¶¶ 21–26.) During these calls, Plaintiff used
a false name and employer and inquired about the
service DialAmerica provided, including the numbers it
called, the dialing system it used, the number of
recorded messages it left per day, and whether the
representatives knew that the March 11th Call violated
the Telephone Consumer Protection Act (“TCPA”). (D.E.
11a

222-2 ¶ 27, 29.)3 Notably, when twice asked by
DialAmerica representatives if he wanted to be added
to their Do-Not-Call list, Plaintiff declined. (Id. ¶ 30.)
Plaintiff filed this suit on December 5, 2011. (D.E.
1.) The First Amended Class Action Complaint (“FAC”)
contains a single count for violation of the TCPA. (D.E.
93-1 ¶¶ 19–22 (citing 47 U.S.C. § 227(b)(1)(B)); see also
D.E. 93–94.) Plaintiff does not allege that he suffered
any annoyance or nuisance from the Call and seeks only
statutory damages. (D.E. 93-1 ¶¶ 43–45.)
As the Third Circuit observed in this case, almost
seven years ago, “[r]arely has one phone call led to so
much litigation.” Leyse v. Bank of Am., Nat. Ass’n, 538
F. App’x 156, 157 (3d Cir. 2013). Because the lengthy
procedural history of the case (and its related cases)
was summarized in this Court’s 2016 opinion denying
Defendant’s motion for judgment on the pleadings, this
Court refrains from repeating it here. See Leyse v. Bank
of Am., 2016 WL 5928683, at *1–3 (D.N.J. Oct. 11,
2016); see also Leyse v. Bank of Am., N.A., 2012 WL
2952428 (D.N.J. July 18, 2012), vacated, 538 F. App’x
156 (3d Cir. 2013), on remand, 2014 WL 4426325
(D.N.J. Sept. 8, 2014), vacated, 804 F.3d 316 (3d Cir.
2015). Following prolonged discovery, Defendant filed,
and the parties briefed, the instant motions. (D.E.
221–22, 227–33, 237–38.)
II.

LEGAL STANDARD

3

Plaintiff disputes that he took these actions in his capacity as a
paid investigator for Mr. Bank. (D.E. 227-2 ¶ 1.)

12a

Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.” Rule 56(a). The “mere existence of
some alleged factual dispute between the parties will
not defeat an otherwise properly supported motion for
summary judgment; the requirement is that there be
no genuine issue of material fact.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247–48 (1986). A fact is only
“material” for purposes of a summary judgment motion
if a dispute over that fact “might affect the outcome of
the suit under the governing law.” Id. at 248. A dispute
about a material fact is “genuine” if “the evidence is
such that a reasonable jury could return a verdict for
the nonmoving party.” Id. The dispute is not genuine if
it merely involves “some metaphysical doubt as to the
material facts.” Id. (quoting Matsushita Elec. Indus.
Co. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986)).
The moving party must show that if the
evidentiary material of record were reduced to
admissible evidence in court, it would be insufficient to
permit the nonmoving party to carry its burden of
proof. Celotex Corp. v. Catrett, 477 U.S. 317, 322-23
(1986). Once the moving party meets its initial burden,
the burden then shifts to the nonmovant who must set
forth specific facts showing a genuine issue for trial
and may not rest upon the mere allegations,
speculations, unsupported assertions or denials of its
pleadings. Shields v. Zuccarini, 254 F.3d 476, 481 (3d
Cir. 2001) (citing Rule 56(e)). “In considering a motion
for summary judgment, a district court may not make
credibility determinations or engage in any weighing of
13a

the evidence; instead, the non-moving party’s evidence
‘is to be believed and all justifiable inferences are to be
drawn in his favor.’” Marino v. Indus. Crating Co., 358
F.3d 241, 247 (3d Cir. 2004) (quoting Anderson, 477
U.S. at 255).
The nonmoving party “must present more than just
‘bare assertions, conclusory allegations or suspicions’
to show the existence of a genuine issue.” Podobnik v.
U.S. Postal Serv., 409 F.3d 584, 594 (3d Cir. 2005)
(quoting Celotex Corp., 477 U.S. at 325). Further, the
nonmoving party is required to “point to concrete
evidence in the record which supports each essential
element of its case.” Black Car Assistance Corp. v. New
Jersey, 351 F. Supp. 2d 284, 286 (D.N.J. 2004). If the
nonmoving party “fails to make a showing sufficient to
establish the existence of an element essential to that
party’s case, and on which . . . [it has] the burden of
proof[,]” then the moving party is entitled to judgment
as a matter of law. Celotex Corp., 477 U.S. at 322-23.
Furthermore, in deciding the merits of a party’s motion
for summary judgment, the court’s role is not to
evaluate the evidence and decide the truth of the
matter, but to determine whether there is a genuine
issue for trial. Anderson, 477 U.S. at 249. The
nonmoving party cannot defeat summary judgment
simply by asserting that certain evidence submitted by
the moving party is not credible. S.E.C. v. Antar, 44 F.
App’x 548, 554 (3d Cir. 2002).
III. DISCUSSION
At the time of the Call, the TCPA prohibited
14a

making:
any telephone call to any residential
telephone line using an artificial or
prerecorded voice to deliver a message
without the prior express consent of the
called party, unless the call is initiated
for emergency purposes or is exempted by
rule or order by the [Federal
Communications] Commission under
paragraph (2)(B).
47 U.S.C. § 227(b)(1)(B) (effective December 16, 2003
through July 8, 2005). Paragraph (2)(B) stated that the
Federal Communications Commission (“FCC”):
(B) may, by rule or order, exempt from
the requirements of paragraph (1)(B) of
this subsection, subject to such conditions
as the [FCC] may prescribe. . .
(ii) such classes or categories of calls
made for commercial purposes as the
Commission determines-(I) will not adversely affect the
privacy rights that this section is
intended to protect; and
(II) do not include the transmission
of any unsolicited advertisement.
47 U.S.C. § 227(b)(2)(B). Defendant argues that
summary judgment is appropriate because: (1) Plaintiff
lacks standing to sue, (2) the Call was exempt from the
TCPA under FCC rules at the time because the parties
15a

had an established business relationship, and (3) the
content of Defendant’s prerecorded message did not
violate the TCPA under FCC rules at the time. This
Court analyzes these arguments in turn and finds that
each is a separate basis for its grant of summary
judgment.
A. Standing

1. Article III Standing
Standing to sue is a doctrine that ensures that
federal courts do not exceed the constitutional limits on
their jurisdiction, which extends only to “Cases” and
“Controversies.” See Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1547 (2016), as revised (May 24, 2016) (citing
U.S. Const. Art. III § 2). “[T]he ‘irreducible
constitutional minimum’ of standing consists of three
elements[:] The plaintiff must have (1) suffered an
injury in fact, (2) that is fairly traceable to the
challenged conduct of the defendant, and (3) that is
likely to be redressed by a favorable judicial decision.”
Id. (quoting Lujan v. Defs. of Wildlife, 504 U.S. 555,
560–61 (1992)) (other citation omitted).
Defendant argues that Plaintiff lacks
constitutional standing under Article III because he
cannot prove injury in fact. “Injury in fact is a
constitutional requirement, and ‘it is settled that
Congress cannot erase Article III’s standing
requirements by statutorily granting the right to sue to
a plaintiff who would not otherwise have standing.’” Id.
at 1547–48 (some punctuation omitted) (quoting
16a

Raines v. Byrd, 521 U.S. 811, 820 n.3 (1997)). “To

establish injury in fact, a plaintiff must show that he
or she suffered ‘an invasion of a legally protected
interest’ that is ‘concrete and particularized’ and
‘actual or imminent, not conjectural or hypothetical.’”
Id. at 1548 (quoting Lujan, 504 U.S. at 560). “Article
III standing requires a concrete injury even in the
context of a statutory violation.” Id. at 1549. “[T]he
violation of a procedural right granted by statute can
be sufficient in some circumstances to constitute injury
in fact,” in which case, a plaintiff “need not allege any
additional harm beyond the one Congress has
identified.” Id. (citations omitted). However, where a
bare procedural violation results in no “harm” and no
“material risk of harm,” it is not concrete. See id. at
1550 (vacating and remanding to determine whether
the “particular procedural violations alleged . . .
entail[ed] a degree of risk sufficient to meet the
concreteness requirement”).
In this Circuit, “[w]hen one sues under a statute
alleging ‘the very injury the statute is intended to
prevent,’ and the injury ‘has a close relationship to a
harm traditionally providing a basis for a lawsuit in
English or American courts,’ a concrete injury has been
pleaded.” Susinno v. Work Out World Inc., 862 F.3d
346, 351 (3d Cir. 2017) (some punctuation omitted)
(quoting In re Horizon Healthcare Servs. Inc. Data
Breach Litig., 846 F.3d 625, 639–40 (3d Cir. 2017)).4 In

4

The rule is one of inclusion, not exclusion. See Susinno, 862 F.3d
at 351 (“We do not, and need not, conclude that intangible injuries
falling short of this standard are never concrete. Rather, we

17a

Susinno, the Third Circuit held that the plaintiff had

pleaded a concrete injury where she alleged she
received a prerecorded voicemail, finding that the
plaintiff’s assertion of “‘nuisance and invasion of
privacy’ resulting from a single prerecorded telephone
call” was the “very harm that Congress sought to
prevent,” and finding that the plaintiff’s claim closely
related to the traditional claim for intrusion upon
seclusion. Id. at 351–52.

Here, notably, Plaintiff does not assert, nor has he
put forward any evidence to show, that he suffered
nuisance, annoyance, inconvenience, wasted time,
invasion of privacy, or any other such injury. See
Lujan, 504 U.S. at 561 (noting that when opposing a
motion for summary judgment, a plaintiff “must ‘set
forth’ by affidavit or other evidence ‘specific facts’”
establishing an “injury resulting from the defendant’s
conduct.” (citations omitted)). Nor could he, because
the record evidence clearly shows that he welcomed
such calls in his role as a paid investigator aiding his
counsel in the preparation of TCPA lawsuits. (See D.E.
222-2 ¶¶ 9–15.) No other plausible inference can be
drawn from the 20+ follow-up calls he made to
DialAmerica, the types of questions he asked
DialAmerica’s representatives, his use of a false name
and employer, his secret recordings of the calls, his
submission of those recordings to his counsel, and,
especially, his refusal to be added to DialAmerica’s
Do-Not-Call list when he was twice given the

simply observe that all intangible injuries that meet this standard
are concrete.” (emphasis in original) (internal citation omitted)).

18a

opportunity. (Id. ¶¶ 20–32.) On these facts, no
reasonable jury could find that Plaintiff suffered an
Article III injury. Having asserted only a procedural
violation that resulted in no harm and no material risk
of harm, (see D.E. 222-2 ¶ 44), Plaintiff fails to meet
his burden of establishing the elements of standing and
summary judgment is therefore warranted. See Lujan,
504 U.S. at 561; Spokeo, 136 S. Ct. at 1550 (stating
that plaintiff cannot “allege a bare procedural
violation, divorced from any concrete harm, and satisfy
the injury-in-fact requirement of Article III” (citation
omitted)).5

1. Statutory Standing
In the alternative, summary judgment is also
appropriate because plaintiff lacks statutory standing.

5

Furthermore, as discussed more fully in Section III.B, infra,
Plaintiff in fact consented to be called by Defendant pursuant to
the TCPA’s “established business relationship” exemption.
Plaintiff actively maintained a bank account with Defendant at
the time of the March 11th call and, therefore, should not have
been surprised to receive a call from Defendant. See In re Rules &
Regs. Implementing the Tel. Consumer Prot. Act of 1991, 20 FCC
Rcd. 3788, 3798 ¶ 26 (Feb. 18, 2005) (“2005 FCC Order”)
(“Consumers should not be surprised to receive a call from a bank
at which they have an account. . . .”) Such calls were exempt from
TCPA liability in March 2005 because a call made to “someone
with whom a prior business relationship exists does not adversely
affect consumer privacy interests.” Tel. Consumer Prot. Act of
1991, 77 Fed. Reg. 34233-01, 34237 ¶ 19 (June 11, 2012) (“2012
FCC Order”). Thus, because Plaintiff consented to calls from
Defendant, he cannot plausibly claim that he was injured by
Defendant’s call.

19a

See Leyse, 804 F.3d at 324 (3d Cir. 2015) (“Article III

is not the only barrier faced by potential plaintiffs.”).
“[A] statutory cause of action extends only to plaintiffs
whose interests ‘fall within the zone of interests
protected by the law invoked.’ . . . . [It is] unlikely that
‘Congress meant to allow all factually injured plaintiffs
to recover.’” Id. (quoting Lexmark Int’l, Inc. v. Static
Control Components, Inc., 134 S. Ct. 1377, 1388
(2014)). On examining the TCPA’s zone of interests,
the Third Circuit concluded that:
It is the actual recipient, intended or not,
who suffers the nuisance and invasion of
privacy. This does not mean that all those
within earshot of an unwanted robocall
are entitled to make a federal case out of
it. Congress’s repeated references to
privacy convince us that a mere
houseguest or visitor who picks up the
phone would likely fall outside the
protected zone of interests. On the other
hand, a regular user of the phone line
who occupies the residence being called
undoubtedly has the sort of interest in
privacy, peace, and quiet that Congress
intended to protect.

Id. at 326. As explained above, Plaintiff has not

established that he suffered any “nuisance [or]
invasion of privacy,” see id., and the record suggests
instead that he welcomed and consented to the March
11th Call. In this sense, Plaintiff had less of an “interest
in [the] privacy, peace, and quiet that Congress
20a

intended to protect” than even the houseguest who
picks up an unwanted call—someone who does not fall
under the TCPA’s zone of interests. See id. Summary
judgment is therefore also warranted for lack of
statutory standing.
B. Established Business Relationship
Even if Plaintiff has standing to litigate his claim,
Defendant is protected from TCPA liability for the
March 11th Call under the “established business
relationship” exemption. Under FCC regulations in
effect in March 2005, the TCPA did not apply to calls
made by a business to customers with whom that
business had an established relationship in the 18
months preceding the call. See 47 C.F.R. §
64.1200(a)(2)(iv) (effective through May 12, 2005); 2005

21a

FCC Order, 20 FCC Rcd. at 3797–98 ¶ 26.6,7 The 2005
FCC Order explicitly stated that “financial agreements,
including bank accounts,” constituted ongoing
relationships that permitted a company “to contact the
consumer to, for example, notify them of changes in
terms of a contract or offer new products and services
that may benefit them.” Id. (emphasis added). Because
Plaintiff was an active BoA customer at the time of the
March 11th Call, (D.E. 222-2 ¶ 47), the Call was exempt
from the TPCA under the established business
relationship exemption. See, e.g., Zelma v. Conway,

6

At the time of the Call, the term “established business
relationship” was defined as:
a prior or existing relationship formed by a
voluntary two-way communication between a
person or entity and a residential subscriber with
or without an exchange of consideration, on the
basis of the subscriber’s purchase or transaction
with the entity within the eighteen (18) months
immediately preceding the date of the telephone
call . . . which relationship has not been previously
terminated by either party.
47 C.F.R. § 64.1200(f)(3) (effective through May 12, 2005).
7

In 2012, the FCC eliminated the established business
relationship exemption with respect to telemarketing robocalls to
residential lines. See In re Rules & Regs. Implementing the Tel.
Consumer Prot. Act of 1991, 27 F.C.C. Rcd. 1830, 1837 (2012).
There is no indication in the 2012 order that it was intended to
apply retroactively, nor do courts generally apply FCC regulations
retroactively. See, e.g., Roberts v. PayPal, Inc., 621 F. App’x 478,
479 (9th Cir. 2015); Latner v. Mount Sinai Health Sys., Inc, 879
F.3d 52, 55 n.2 (2d Cir. 2018), as amended (Jan. 9, 2018).

22a

Civ. No. 12-256, 2013 WL 6498548, at *2 (D.N.J. Dec.
11, 2013) (dismissing TCPA claim after finding that an
established business relationship existed where
plaintiff’s wife elected to receive a free magazine
subscription from defendant).
Plaintiff argues that the claimed exemption does
not apply here because Defendant intended to call
Plaintiff’s roommate with whom it did not have an
established business relationship. (D.E. 227 at 31–34.)8
8

Plaintiff also argues that the call was not exempt because it was
not made “pursuant” to the parties’ established business
relationship (i.e., the relationship was not Defendant’s reason for
the call). (See D.E. 227 at 34 (quoting Rules & Regs. Implementing
the Tel. Consumer Prot. Act of 1991, 68 Fed. Reg. 44144-01, 44158
¶ 80).) The quoted FCC order states:
Moreover, the [established business relationship]
exemption focuses on the relationship between the
sender of the message and the consumer, rather
than on the content of the message. It appears
that consumers have come to expect calls from
companies with whom they have such a
relationship, and that, under certain
circumstances, they may be willing to accept these
calls. . . . Therefore, we retain the exemption for
established business relationship calls from the
ban on prerecorded messages. Telemarketers that
claim their prerecorded messages are delivered
pursuant to an established business relationship
must be prepared to provide clear and convincing
evidence of the existence of such a relationship.
68 Fed. Reg. at 44158 ¶ 80 (emphasis added). This language
reinforces the application of the exemption, because “the
(continued...)

23a

The distinction appears meaningless, however,
following the Third Circuit’s 2015 decision in this case,
holding that it is the actual recipient of the call
(intended or not) who is the “called party” under the
TCPA. Leyse, 804 F.3d at 325–27. Because the TCPA
does not apply to calls made “with the prior express
consent of the called party,” 47 U.S.C. § 227(b)(1)(A)
(2005) (emphasis added), and an established business
relationship effectively establishes consent, see 2012
FCC Order, 77 Fed. Reg. at 34237 ¶ 19, the exemption
applies here under the plain language of the statute
and regulation.9 Summary judgment is therefore
warranted.
C. Content of the Call

8

(...continued)
exemption focuses on the relationship between the sender of the
message and the consumer” who receives the call, and a caller
asserting the defense need only present “clear and convincing
evidence of the existence of such a relationship.” Id. The order does
not discuss the purpose of the call or require any showing with
respect to purpose in order to utilize the defense.
9

On appeal at the Third Circuit, Plaintiff argued that if the
“called party” was only the intended recipient, “telemarketers
would be able to routinely avoid liability by claiming that they had
‘associated’ a telephone number with a person other than the
plaintiff.” (Pl.-Appellant’s Reply Br. at 4, No. 14-4073 (3d Cir. Mar.
20, 2015).) Now, after winning that appeal, Plaintiff seeks to avoid
the lack of liability by claiming that the established business
relationship exemption can only apply to the intended recipient of
the call (here, Defendant’s roommate). Plaintiff cannot have it
both ways.

24a

Finally, even if Plaintiff has standing to sue and
the established business relationship exemption does
not apply, summary judgment must still be granted
because the content of the Call itself did not violate
FCC regulations applicable at the time regarding
abandoned telemarketing calls and dual-purpose calls.
The parties agree that the initial Call to Plaintiff
contained a prerecorded message which was lawful
(and required) under applicable abandoned call
regulations.10,11 (FAC ¶ 10, D.E. 227-1 ¶ 8.) Such
regulations stated, in relevant part:
A call is “abandoned” if it is not connected
to a live sales representative within two
(2) seconds of the called person’s
completed greeting. Whenever a sales

10

As discussed above, the March 11th Call contained a
prerecorded message which stated: “This call is on behalf of Bank
of America at 1-800-201-6872 for telemarketing purposes. We’re
sorry we missed you and we will try calling back at another time.”
(D.E. 222-2 ¶ 7.)
11

When Defendant moved for judgment on the pleadings in 2016
on the basis that the March 11th Call was exempt from the TCPA
because it complied with abandoned call regulations, this Court
denied the motion because “the Complaint [alleged] that the
number provided in the message did not allow Plaintiff to ‘make
a do-not-call request during regular business [hours].’” Leyse v.
Bank of Am., 2016 WL 5928683, at *6 (D.N.J. Oct. 11, 2016) (citing
Compl. ¶¶ 12–16). Following discovery, it is now clear that
Plaintiff declined two opportunities to make a do-not-call request
when he called the telephone number contained in the abandoned
call message. (D.E. 227-1 ¶¶ 30–31.)

25a

representative is not available to speak
with the person answering the call, that
person must receive, within two (2)
seconds after the called person’s
completed greeting, a prerecorded
identification message that states only
the name and telephone number of the
business, entity, or individual on whose
behalf the call was placed, and that the
call was for “telemarketing purposes.”
The telephone number so provided must
permit any individual to make a
do-not-call request during regular
business hours for the duration of the
telemarketing campaign.
47 C.F.R. § 64.1200(a)(6) (effective through May 12,
2005). Plaintiff alleges, however, that the Call became
an unlawful “dual-purpose call” (i.e., for both a lawful
and unlawful purpose) when he called the number
contained in the prerecorded message only to hear
another prerecorded message containing the following
“unsolicited advertisement” for a credit card:
Thank you for calling about the Bank of
America Credit Card. If you’ve already
submitted your application, press 1. If
you have questions about your existing
Bank of America Credit Card, press 2. To
complete your request for a Bank of
America Credit Card, press 3. Press 4 if
you would like to speak to a
representative in reference to a call you
26a

received.
(FAC ¶¶ 12–15 (parenthetical numbering omitted); see
D.E. 227 at 27–28.)
The “dual-purpose” doctrine does not apply to the
abandoned call message that Plaintiff received. The
applicable FCC order discusses dual-purpose calls in
the context of “unsolicited advertisements” that contain
both customer service and marketing elements. In re

Rules & Regs. Implementing the Tel. Consumer Prot.
Act of 1991, 18 FCC Rcd. 14014, 14098–99 ¶ 142 (July

3, 2003) (“2003 FCC Order”). The 2003 FCC Order
states that “[i]f the call is intended to offer property,
goods, or services for sale either during the call, or in
the future (such as in response to a message that
provides a toll-free number), that call is an
advertisement.” Id. However, the same order creates
an exception for abandoned call messages that provide
a number for call recipients to call and make a
do-not-call request. See id. at 14108 ¶ 155 (comparing
the exception to the Federal Trade Commission’s “safe
harbor” provision for similar messages). Plaintiff was
able to do exactly that—when he called the number in
the abandoned call message, he was able to speak to
representatives who asked if he wished to make a
do-not-call request, which he declined to do. (D.E.
227-1 ¶¶ 30–31.) The March 11th Call, therefore, did
not violate the TCPA.12

12

That the callback number presented other options related to a
credit card application is not sufficient to remove the abandoned
(continued...)

27a

IV. CONCLUSION
For the reasons set forth above, Defendant’s
Motion for Summary Judgment is GRANTED.
Defendant’s Motion to Strike, Plaintiff’s Motion to File
a Second Amended Complaint, and Plaintiff’s Motion
for Class Certification are DISMISSED AS MOOT.13, 14

12

(...continued)
call message from the “safe harbor” provision. S ee 2003 FCC
Order at 14108 ¶ 155 (“caution[ing] that additional information in
the [abandoned call] prerecorded message constituting an
unsolicited advertisement would be a violation of our rules” in
calls made by the telemarketer to a consumer, but not cautioning
similarly for calls made by the consumer to the telemarketer).
13

Plaintiff moved to amend the FAC to change the proposed class
period from December 5, 2007 through the present to October 1,
2003 through November 30, 2006 (or, alternatively, from March
11, 2005 through November 30, 2006). (See D.E. 231-1, 231-4.) The
proposed change, if permitted, would not have affected the
grounds on which this Court grants summary judgment.

14

Under Rule 23(a), a class may be certified only if “(1) the class
is so numerous that joinder of all members is impracticable
[“numerosity”]; (2) there are questions of law or fact common to
the class [“commonality”]; (3) the claims or defenses of the
representative parties are typical of the claims or defenses of the
class [“typicality”]; and (4) the representative parties will fairly
and adequately protect the interests of the class [“adequacy”].”
Rule 23(a); see also Marcus v. BMW of N. Am., LLC, 687 F.3d 583,
590–91 (3d Cir. 2012). Under Rule 23(b)(3), a party seeking class
certification must also “prove by a preponderance of the evidence
that the class is ascertainable [“acertainability”],” that “questions
of law or fact common to class members predominate over any
questions affecting only individual members [“predominance”],
(continued...)

28a

An appropriate order follows.

s/ Susan D. Wigenton

SUSAN D. WIGENTON
UNITED STATES DISTRICT JUDGE

Orig:
cc:

Clerk
Hon. Steven C. Mannion, U.S.M.J.
Parties

14

(...continued)
and that a class action is superior to other available methods for
fairly and efficiently adjudicating the controversy [“superiority”].”
Byrd v. Aaron’s Inc., 784 F.3d 154, 163 (3d Cir. 2015), as amended
(Apr. 28, 2015); see also Marcus, 687 F.3d at 591–593; Rule
23(b)(3). This Court notes that, even if it did not grant summary
judgment, it would not certify the proposed class. Among other
deficiencies, the proposed class is rife with individualized issues
such that questions common to the class do not predominate. For
example, there are no records indicating that other putative class
members heard a similar abandoned call message, called the
number left in that message, and heard a prerecorded message
similar to the one Plaintiff heard. For any such putative class
members, an individualized inquiry would be needed to establish
that they were not BoA customers at the time of the calls.
Furthermore, Plaintiff’s interest in receiving the March 11th Call
in light of his work as a TCPA investigator for his counsel calls
into question both the typicality of his claims and defenses and his
adequacy as a class representative.

29a

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1666
MARK LEYSE, Individually and on Behalf
of All Others Similarly Situated,
Appellant
v.
BANK OF AMERICA NATIONAL ASSOCIATION
(D.C. No. 2-11-cv-07128)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, MCKEE, AMBRO,
CHAGARES, JORDAN, SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS and
*
ROTH, Circuit Judges

*

The vote of Senior Judge Roth is Limited to Panel Rehearing
Only.

30a

The petition for rehearing filed by Appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
DENIED.
BY THE COURT
s/ JANE R. ROTH
Circuit Judge
Dated: June 17, 2021
PDB/cc: All Counsel of Record

31a

